V

• NO .

IN THE
SUPREME COURT OF THE United States

FERNANDO RODRIGUEZ-PETITIONER
V.
BOBBY LUMPKIN-RESPONDENT

PROOF OF SERVICE
I Fernando Rodriguez, do swear or declare that on this data,
Duly 13, 2021,

as required by Supreme Court rule 29 I have served

the enclosed Motion For LEAVE TO PROCEED IN FORMA PAUPERIS AND
PETITION FOR WRIT OF CERTIORARI on each party to the above pro­
ceeding or that party's counsel,

and on every other person re­

quired to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed
to each of them and with the first-class postage prepaid,

or

by delivery to a third party commercial carrier for delivery
within 3 calender days.
THE NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS:
Casey Solomon, Assistant Attorney General,
Austin , Tx 7B71 1 -2548.

P.0. Box 12548,

I declare under penalty of perjury that the foregoing is true
and correct.

RECPVED
JOL 2 0 2021
Off ■awafj&flg

